                                                             U. S. Department of Justice
                                                             United States Attorney
                                                             Eastern District of Washington



                                   PRESS RELEASE

 FOR IMMEDIATE RELEASE                               FOR INFORMATION CONTACT:

 Wednesday, December 14, 2011                        Thomas Rice, First Assistant U.S. Attorney
                                                     (509) 353-2767




                      Illegal Immigrant Sentenced for Benefits Fraud

       Yakima – Michael C. Ormsby, United States Attorney for the Eastern District of
Washington, announced that on December 12, 2011, Roman Ceniceros Mora, also known as
Joseph Anderson Evans Shippentower, age 61, of Yakima, Washington, was sentenced to 96
months imprisonment for federal fraud and immigration charges. A jury in Yakima,
Washington, previously found Ceniceros Mora guilty of 42 counts of fraud related to the
unlawful acquisition of supplemental security income (SSI) and food stamps, a false claim of
United States citizenship, and making a false statement in application for a United States
passport. A separate jury convicted Ceniceros Mora of being an alien in the United States after
deportation.

        Roman Ceniceros Mora, a citizen of Mexico, had been living in the United States for
decades following prior deportations. During that time, he repeatedly claimed citizenship in the
United States by birth to American Indians in the Pacific Northwest. He also claimed to have
served in the United States Marine Corps and claimed to have suffered combat related injuries
during the Vietnam Era. He never served in the United States Marine Corps nor did he serve in
Vietnam.

        On May 25, 2010, Roman Ceniceros Mora submitted an application for a United States
passport at a Post Office in Yakima, Washington. The application falsely claimed the name of
Joseph Anderson Evans Shippentower, a real person. The Department of State Seattle Passport
Agency subsequently detected inconsistencies in the information disclosed on the application.
Further investigation by the department’s Diplomatic Security Service revealed the true
nationality of Roman Ceniceros Mora, in addition to evidence indicating he was receiving SSI
from the Social Security Administration and food stamps from the Washington Department of
Social and Health Services. His applications for public assistance were based on his alleged
injuries and claim of United States citizenship.




                                           Page -1-
       The Court also ordered Ceniceros Mora to serve three years of supervised release
following his release from prison, but is then also subject to deportation to Mexico. Ceniceros
Mora must also pay $155,431.18 in restitution to the United States and the State of Washington.

        The investigation was conducted by the Department of State Diplomatic Security Service,
United States Immigration and Customs Enforcement, the Social Security Administration Office
of Inspector General, Veterans Administration Office of Inspector General, Washington
Department of Social and Health Services, and the United States Border Patrol. Additional
assistance was provided by the Yakima County Sheriff’s Office and the Marine Corps University
History Division. This case was prosecuted by Shawn Anderson, Assistant United States
Attorney for the Eastern District of Washington.

11-CR-2039-WFN




                                           Page -2-
